Office of Inspector General

November 6, 2010

MEMORANDUM

FOR:                 USAID/Afghanistan Director, Earl W. Gast

FROM:                OIG/Afghanistan Director, Tim Cox /s/

SUBJECT:             Review of USAID/Afghanistan’s Ministerial Assessment Process (Review Report
                     No. F-306-11-001-S)

This memorandum is our report on the subject review.            The report contains three
recommendations to help USAID/Afghanistan strengthen its ministerial assessments.

I want to thank you and your staff for the cooperation and assistance extended to us during this
review.

Summary

The U.S. Government expects to deliver 50 percent of its development aid to Afghanistan
through the Government of the Islamic Republic of Afghanistan’s (GIRoA’s) core budget by the
end of calendar year 2011. With this expectation, USAID/Afghanistan is conducting a series of
pre-award assessments of GIRoA ministries to see whether the ministries can responsibly
manage U.S. Government resources. In a preaward assessment (sometimes called a preaward
survey or preaward audit) the assessment team normally conducts inquiries, observations, and
tests to see whether the assessed entity has the requisite procedures, internal controls,
experienced personnel, and other resources needed to responsibly manage U.S. Government
funds.

Our review focused on assessments already performed by USAID/Afghanistan as well as on
draft scopes of work for future assessments.

Most of the assessments completed to date were based mainly on reviews of written
procedures, inquiries of ministry officials, and inspection of a limited number of transactions.
More testing of controls would have provided greater assurance of detecting vulnerabilities that
could result in waste or misuse of U.S. Government funds.

The draft scopes of work for future assessments can be strengthened by telling reviewers what
program(s) ministries may be asked to manage, assessing the control environment (i.e., the
environment that specific control procedures operate in), expanding coverage of controls over



U.S. Agency for International Development
Office of Inspector General
Country Office Afghanistan
U.S. Embassy                                                                                  1
Kabul, Afghanistan
www.usaid.gov/oig
human resources and fixed assets, and providing more detailed guidance to reviewers on how
to assess compliance with applicable laws and regulations.

Background

On January 28, 2010, at a conference on Afghanistan held in London, the United States and
other donors conditionally committed themselves to delivering 50 percent of development aid to
Afghanistan through the Government of Afghanistan over the next 2 years. According to the
conference communiqué:

    Conference Participants supported the ambition of the Government of Afghanistan whereby
    donors increase the proportion of development aid delivered through the Government of
    Afghanistan to 50% in the next two years, including through multi donor trust funds that support
    the Government budget e.g. the Afghanistan Reconstruction Trust Fund and the Law and Order
    Trust Fund for Afghanistan. But this support is conditional on the Government’s progress in
    further strengthening public financial management systems, reducing corruption, improving
                                                                                                1
    budget execution, developing a financing strategy and Government capacity towards the goal.

The international donors reaffirmed this conditional commitment at the Kabul International
Conference on Afghanistan held in July 2010. The communiqué released at the end of the
conference stated that:

    In line with the London Conference Communiqué, [the donors] restated their strong support for
    channeling at least 50% of development aid through the Afghan Government’s core budget within
    two years while, as committed at the London Conference, the Afghan Government achieves the
    necessary reforms to strengthen its public financial management systems, reduce corruption,
    improve budget execution, and increase revenue collection …

While most of USAID’s on-budget assistance to date has been provided through the
Afghanistan Reconstruction Trust Fund, a multidonor trust fund administered by the World
Bank, the mission has also disbursed about $19.8 million through bilateral grant agreements as
follows:

Table 1. Financial Status of USAID/Afghanistan Bilateral Assistance to the Government of
Afghanistan as of August 31, 2010 (Unaudited)

Program                                      Total Estimated        Obligations       Disbursements
                                                 USAID              ($millions)         ($millions)
                                              Contribution
                                               ($millions)
Ministry of Public Health, Partnership                  236.5                 41.3                 12.9
Contracts for Health Services Project
Ministry of Finance, Cash Transfer for                     30.0                 5.5                    5.5
Civilian Technical Assistance Project
Ministry of Communication and                               1.0                 1.0                    0.4
Information Technology, Policy
Capacity Initiative
Ministry of Finance, Salary Support                         1.9                 1.0                    1.0

1
 Specific steps toward improving public financial management, with timeframes, were included in the
Government of Afghanistan’s Public Financial Management Roadmap, dated July 14, 2010.

                                                                                                        2
Program                                        Total Estimated       Obligations       Disbursements
                                                   USAID             ($millions)         ($millions)
                                                Contribution
                                                 ($millions)
Program
Ministry of Finance, Good Governance                       100.0                   0                    0
Incentive Fund
Ministry of Agriculture, Irrigation, and                   100.0                   0                    0
Livestock, Agriculture Development
Fund
Independent Directorate of Local                            40.0                   0                    0
Governance, District Development
Fund
Totals                                                     509.4                48.8                19.8
Source: USAID/Afghanistan Office of Financial Management

Before disbursing funds to GIRoA institutions, USAID/Afghanistan performs assessments to
determine whether specific ministries are capable of responsibly managing USAID funds. So
far, USAID/Afghanistan has performed assessments of six ministries as shown in Table 2.

Table 2. USAID/Afghanistan Ministerial Assessments 2

Ministry                                               Report Date
Ministry of Public Health                              07/10/2007 (procurement review)
                                                       05/14/2008 (financial management
                                                       review)
Ministry of Communications and Information             12/9/2008 (procurement review)
Technology                                             1/21/2009 (financial management
                                                       review)
Ministry of Finance                                    07/27/2009 (financial management
                                                       review)
Ministry of Agriculture, Irrigation, and Land          06/28/2010 (combined review)
Ministry of Education                                  Combined review in draft as of
                                                       09/16/2010
Ministry of Rural Rehabilitation and                   Financial management review in
Development                                            draft as of 09/16/2010

In addition to these assessments that were completed or in process as of September 16, 2010,
when we completed the fieldwork for our review, USAID/Afghanistan plans to complete another
four ministerial assessments by December 2010 using a scope of work it has drafted for use by
local public accounting firms. USAID/Afghanistan is also participating in a donor group that
hopes to harmonize requirements and reduce administrative demands on the target ministries
by conducting joint assessments. 3 This group expects to complete seven joint assessments of
ministries by March 2011.
2
  The most recent assessments of each ministry are shown in Table 2. Several of these assessments
updated earlier assessments that were performed as early as 2003.
3
  To be precise, the donor group developed two scopes of work: one to assess financial management and
procurement capacity and another to assess technical capacity. However, in this report, we refer to them
as a single scope of work because it is intended that both scopes of work will be used together to provide
a complete assessment of the target ministries.

                                                                                                        3
Review Objective

The Office of Inspector General/Afghanistan conducted this review to determine whether
USAID’s ministerial assessment process provides reasonable assurance of identifying
significant vulnerabilities that could result in waste or misuse of U.S. Government resources.
Page 8 contains a discussion of the review’s scope and methodology.

Completed Assessments Did Not Provide
Reasonable Assurance of Detecting
Significant Vulnerabilities

It is critically important that USAID/Afghanistan’s ministerial assessments provide reasonable
assurance of detecting vulnerabilities that could result in waste or misuse of U.S. Government
resources. 4 As indicated in Table 1 above, USAID’s exposure to date is limited, with $19.8
million disbursed to ministries as of August 31, 2010. However, USAID/Afghanistan expects to
deliver at least $509.4 million in assistance through GIRoA ministries, not counting assistance
delivered through the Afghanistan Reconstruction Trust Fund. At the same time, widely
reported, credible indices indicate that corruption and government capacity constraints in
Afghanistan are severe. For example, the World Bank’s governance indicators put Afghanistan
in the first percentile among 212 countries with respect to rule of law and control of corruption
and in the ninth percentile for government effectiveness.

In our opinion, the assessments performed to date did not provide reasonable assurance of
detecting significant vulnerabilities. The scope of the assessments varied from one ministry to
another, but some of the significant limitations on the assessments included the following:

•   For three of the six assessed ministries, reviewers did not know what programs the
    ministries would be asked to manage. The reviewers were asked to assess the ministries’
    management capacity, but they had no answer to the question “capacity to manage what?”
    In our opinion, it is difficult—perhaps impossible—to assess a ministry’s ability to responsibly
    manage USAID programs without understanding the types of USAID programs the ministry
    will manage and their approximate magnitudes.

•   None of the assessments explicitly considered the control environment in Afghanistan or in
    individual ministries. The environment in which ministries are embedded—as well as the
    environment within individual ministries—can significantly influence the effectiveness of
    control procedures. For example, if senior officials can circumvent established rules, then
    the rules will only circumscribe the behavior of lower-level officials. Other significant
    environmental factors that might impede the effectiveness of internal controls include
    widespread impunity, the ability of high-level officials to interfere with law enforcement
    institutions and processes, and instability that encourages officials to engage in short-term
    decision making and exaggerated levels of corruption. The influence of these factors on the


4
  USAID does not generally require assessments of host government ministries and has not issued
guidance on the scope of such assessments, although the Chief Financial Officer’s office is leading
development of a new public financial management risk assessment tool. (In addition, USAID requires
pre-award assessments of private entities in certain circumstances [Automated Directives System
303.3.9.1] and requires assessments of host government agencies expected to award USAID-financed
host country contracts valued in excess of $250,000 [Automated Directives System 301.5.2].)

                                                                                                  4
    effectiveness of control procedures still needs to be considered in assessing the ability of
    ministries to responsibly manage U.S. Government funds.

•   Testing of internal controls was limited. In two cases, the reviews were descriptive in nature
    and involved little or no testing of control procedures. That is, the reviewers made inquiries
    and consulted manuals and written procedures, but they did not perform tests to determine
    whether mandated control procedures were adhered to in practice. In three other cases,
    reviewers stated that they tested a small number of items to see whether internal control
    procedures were followed, but the number of items tested, specific items tested, and so on
    were not recorded.

•   None of the assessments included substantive information on controls over fixed assets or
    payroll and attendance. These omissions are significant because both of these areas
    typically involve significant resources and vulnerabilities to fraudulent activities.

•   For all six ministries, it was unclear to what degree the reviewers examined compliance with
    applicable laws and regulations and/or compliance with requirements imposed by other
    donors. Neither the scopes of work/work programs nor the written reports mentioned
    compliance with applicable laws and regulations, but in every case the reviewers stated that
    they considered compliance with laws or regulations such as Afghanistan’s Public Finance
    and Expenditure Management Law and the Procurement Law. Examining compliance with
    applicable laws and regulations is important, since these may mandate control procedures
    and also because a ministry’s compliance with laws and regulations might serve as a
    predictor of its ability to comply with USAID agreement provisions in the future. 5

•   All of the assessments were reviewed by USAID/Afghanistan supervisors. However, for
    three ministries, we concluded that supervisory review was limited to the written assessment
    report and did not extend to the supporting documentation or evidence supporting the
    written report.

•   In five cases, the reports were not provided to the ministries for comment before they were
    finalized. Giving the ministries an opportunity to comment on draft reports can help ensure
    that the facts in the report are accurate.

Details of our review of each assessment are provided in Appendix I.

As a result of the issues discussed above, in our opinion, significant vulnerabilities that could
result in waste or misuse of U.S. Government resources might not be identified by the
assessments.

In our opinion, clearer direction and closer supervision would help ensure more thorough
reviews; also, in some cases, more time should be allotted for the reviews. A range of specific
actions can be taken by USAID/Afghanistan so that future assessments will provide greater
assurance that ministries will be able to manage USAID funds responsibly:

•   Focus future reviews on ministries’ capacity to implement specific proposed programs.


5
 For two ministries, reports prepared by the Office of Acquisition and Assistance explicitly considered
compliance with the Procurement Law but reports prepared by the Office Financial Management did not.

                                                                                                          5
•   Provide reviewers with detailed scopes of work or questionnaires, duly approved by
    supervisors, that provide a way for reviewers to show how each step was completed. As an
    example of a best practice, a questionnaire used on several of the assessments asked
    reviewers to answer a number of specific questions and indicate whether the answers were
    obtained through inquiry, observation, or a test.

•   Ask supervisors to approve testing plans. This would better ensure that the most important
    findings and conclusions are supported by reliable evidence.

•   Expand testing of internal control procedures to verify that they are adhered to consistently
    and operating effectively.

•   Ask reviewers to explicitly consider the effect of the control environment on the effectiveness
    of internal control procedures.

•   Instruct reviewers to identify laws and regulations that have a direct bearing on human
    resources, financial management, and procurement issues, and perform tests to see if these
    laws and regulations are complied with.

•   Ask reviewers to cross-index their reports to completed questionnaires, interview notes,
    copies of documentation, or other supporting evidence. This would help reviewers ensure—
    and supervisors verify—that facts and conclusions in the assessment reports are supported
    by reliable evidence.

•   Provide draft reports to ministries and other interested parties for comment.

These actions, among others, should be considered by USAID/Afghanistan in the process of
implementing the following recommendation.

    Recommendation 1. We recommend that USAID/Afghanistan develop and implement
    suitable policies, procedures, and practices so that ministerial assessments will provide
    reasonable assurance of identifying significant vulnerabilities that could result in waste or
    misuse of U.S. Government funds.

Scopes of Work for Future
Assessments Can Be Strengthened

During our review, we identified opportunities to strengthen draft scopes of work for (1) future
ministerial assessments contracted by USAID and (2) future joint donor assessments. We have
provided detailed comments to USAID/Afghanistan in separate communications dated
September 2 and September 8, 2010, but some of our more significant comments are
summarized below.

USAID Scope of Work. USAID/Afghanistan’s draft scope of work was intended to be used to
contract with local public accounting firms to perform assessments of GIRoA ministries. This
scope of work was an improvement over the scopes of work for many of the assessments that
have already been completed, in that it included more detailed review steps and procedures.
The draft scope of work could be further strengthened by taking the following steps:




                                                                                                    6
•   Tell reviewers what program(s) the target ministries are expected to manage.
    Understanding the nature and magnitude of the programs that the ministries are expected to
    manage will help reviewers make better-informed judgments about ministry capacity.

•   Explicitly address the control environment and its influence on the effectiveness of control
    procedures.

•   As part of the reviewer’s evaluation of human resources policies and practices, examine
    vetting policies and procedures, provisions for background investigations, and asset
    disclosure requirements for officials in procurement or other sensitive positions. As time and
    resources permit, the reviewers should conduct floor checks to verify that employees on
    ministry payrolls are present and performing their assigned functions. 6 Finally, the
    reviewers should perform tests to verify that hiring, promotion decisions, and pay are in
    compliance with local law, that appropriate deductions for payroll taxes are made, where
    applicable, and that payroll taxes are actually remitted to the appropriate authorities.

•   Provide more details to reviewers on how they should approach their assessment of
    compliance with applicable laws and regulations. This approach should include (1)
    identifying all provisions of laws and regulations that, if not observed, could result in waste
    or misuse of material amounts of USAID funds, (2) assessing the risk of noncompliance with
    each provision, and (3) testing a sample of items to provide reasonable assurance of
    detecting both intentional and unintentional instances of noncompliance.

Joint Donor Scope of Work. The joint donor scope of work represents a sophisticated attempt
to serve a number of purposes for many different customers. It is intended to help multiple
donors decide whether ministries have the capacity to manage development assistance
programs, while also helping to measure host government progress toward improving public
financial management practices as called for at the London and Kabul conferences and in the
Public Financial Management Roadmap. Another innovative feature of the scope of work is that
it incorporates performance benchmarks to try to make subjective reviewer judgments more
objective and consistent.

The approach taken in the joint donor scope of work is to set overall objectives for ministry
assessments while limiting the number of detailed steps. In comparison with the approach
taken by USAID/Afghanistan in its scope of work, this approach places greater reliance on
reviewers’ professional judgment and experience. We prefer USAID/Afghanistan’s approach
because it permits a more detailed, explicit understanding with the reviewers and thus, in our
opinion, better ensures that completed assessments will meet the needs of the intended users.
In our opinion, the joint donor scope of work can be further strengthened by taking the following
steps:

•   Ask reviewers to determine whether ministry employees with key roles in the internal control
    system have the requisite experience and credentials. The reviewers should also look into
    controls such as vetting procedures, procedures for background investigations, and
    requirements for asset declarations. Finally, the reviewers should assess the degree to
    which personnel decisions are based on patronage principles or merit.

6
 Floor checks involve selecting a sample of employees from payroll, visiting them in their workplaces,
and using interviews and physical observation to verify that the employees are performing the functions
assigned to them.

                                                                                                     7
•   Ask reviewers to select a sample of fixed assets from purchasing records and the fixed
    asset register and verify the existence of the assets through physical observation.

•   Conduct floor checks as described above.

To help ensure that future assessments of GIRoA ministries meet USAID’s needs, we are
making the following recommendations:

    Recommendation 2. We recommend that USAID/Afghanistan make appropriate
    modifications to the scopes of work for future ministerial assessments as outlined in this
    report.

    Recommendation 3. We recommend that USAID/Afghanistan rely on joint donor
    assessments of host government ministries to the degree that they meet USAID’s
    needs. If additional assessments are needed to meet USAID’s needs, the work should
    build on but not duplicate work already performed, to the extent possible.

Scope and Methodology

The Office of Inspector General Country Office in Afghanistan conducted this review in
accordance with the general standards in Chapter 3 as well as the evidence and documentation
standards in Government Auditing Standards, paragraph 7.55 and paragraphs 7.77 through
7.84. Those standards require that we plan and perform the review to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions, based on
our review objective. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on the review objective.

During our review to determine whether USAID’s ministerial assessment process provides
reasonable assurance of identifying significant vulnerabilities that could result in waste or
misuse of U.S. Government resources, we focused on two areas:

•   A review of the assessments completed by USAID/Afghanistan. This included reviewing the
    assessment reports, the work programs, and any working papers or other evidence
    supporting the assessment reports, and interviewing the staff who performed the
    assessments. Where USAID/Afghanistan conducted multiple assessments of the same
    ministry, we focused on the most recent assessments. However, we also reviewed earlier
    assessments in some instances (e.g., where USAID/Afghanistan characterized the most
    recent assessments as updates of earlier assessments).

•   A review of the draft scopes of work for upcoming USAID assessments and joint donor
    assessments of ministries’ financial management, procurement, and technical capacity.

We held an exit briefing with USAID/Afghanistan officials to discuss the results of our review.
USAID/Afghanistan officials expressed general agreement with our findings and
recommendations. We requested, but did not receive, formal management comments on our
draft report.




                                                                                                 8
                                                                                                                                                      Appendix I

Summary of Review of Ministry Assessments

Item                                    Ministry of            Ministry of        Ministry of          Ministry of        Ministry of          Ministry of
                                            Rural             Agriculture,        Education         Communication          Finance           Public Health
                                       Rehabilitation       Irrigation, and         (Draft)         and Information      (07/27/2009)       (10/13/2007 and
                                             and               Livestock                              Technology                              05/14/2008)
                                       Development            (06/28/2010)                          (12/29/2008 and
                                           (Draft)                                                    01/29/2009)
Did the reviewers follow a work       Yes.                 Yes.                Yes.                 Yes.               Yes.                 Yes.
program?
Did the reviewers obtain and review   Not yet. (Internal   Reviewed one        They reviewed        Yes.               No.                  They reviewed
previous audits of the ministry?      audits were          internal audit.     some internal                                                some internal
                                      requested but not    Did not contact     audit reports, but                                           audit reports but
                                      received yet. Did    Control and Audit   they were not                                                were not allowed
                                      not contact the      Office.             allowed to take                                              to make copies.
                                      Control and Audit                        copies. Did not
                                      Office.)                                 contact Control
                                                                               and Audit Office.
Did the reviewers indicate what       No.                  No.                 No, but the          Yes.               No.                  Yes (financial
USAID program(s) the ministry is                                               reviewers                                                    management
expected to implement?                                                         expected the                                                 assessment only,
                                                                               Ministry to                                                  and the scope of
                                                                               implement a                                                  the program was
                                                                               textbook printing                                            subsequently
                                                                               activity.                                                    expanded by
                                                                                                                                            almost a factor of
                                                                                                                                            magnitude).
Does the assessment assess            No.                  No.                 No.                  No.                No.                  No.
“control environment” issues?
What testing of internal controls     Walkthrough/         No testing.         The reviewers        Walkthrough/       Limited              No testing was
was performed?                        review of fewer                          conducted a cash     review of fewer    walkthroughs but     documented.
                                      than five items.                         count, obtained      than five items.   no testing per se.
                                                                               copies of other
                                                                               cash counts;
                                                                               obtained copies
                                                                               of some payment
                                                                               requests, a copy
                                                                               of a bank
                                                                               reconciliation,
                                                                               etc.


                                                                                                                                                                 9
                                                                                                                                                 Appendix I

Item                                Ministry of          Ministry of        Ministry of          Ministry of         Ministry of          Ministry of
                                       Rural            Agriculture,        Education         Communication           Finance           Public Health
                                   Rehabilitation     Irrigation, and         (Draft)         and Information       (07/27/2009)       (10/13/2007 and
                                        and              Livestock                              Technology                               05/14/2008)
                                   Development          (06/28/2010)                          (12/29/2008 and
                                      (Draft)                                                   01/29/2009)
Coverage of inventory and fixed   No.                No.                 No.                  No.                 Brief mention of     No.
asset issues?                                                                                                     responsibility of
                                                                                                                  treasury
                                                                                                                  department for
                                                                                                                  control over
                                                                                                                  cash; and brief
                                                                                                                  mention of role of
                                                                                                                  internal audit
                                                                                                                  department in
                                                                                                                  protecting assets.
Coverage of payroll issues?       The report only    The payroll unit    No coverage,         No.                 Brief mention of     No.
                                  mentions that      was visited/        other than to note                       planned payroll
                                  payroll expenses   interviewed, and    that two                                 audit.
                                  are included in    the civil service   employees in the
                                  the ministries     reform program      finance/payment
                                  budget and         is discussed, but   department are
                                  expenditure        there was no        assigned to
                                  tracking system.   testing on these    payroll and
                                                     issues.             attendance
                                                                         issues.
Is it clear how the reviewers     They used their    They used their     They used their      They used their     They used their      They used their
decided what types of internal    professional       professional        professional         professional        professional         professional
control deficiencies should be    judgment.          judgment.           judgment.            judgment. Also,     judgment.            judgment.
reported?                                                                                     for the
                                                                                              procurement
                                                                                              review, the
                                                                                              reviewer
                                                                                              consulted older
                                                                                              assessments,
                                                                                              ADS 305, the
                                                                                              Project Officer's
                                                                                              Guidebook on
                                                                                              Host Country
                                                                                              Contracting, etc.


                                                                                                                                                         10
                                                                                                                                                     Appendix I

Item                                     Ministry of          Ministry of        Ministry of          Ministry of        Ministry of         Ministry of
                                             Rural           Agriculture,        Education         Communication          Finance          Public Health
                                        Rehabilitation     Irrigation, and         (Draft)         and Information      (07/27/2009)      (10/13/2007 and
                                              and             Livestock                              Technology                             05/14/2008)
                                        Development          (06/28/2010)                          (12/29/2008 and
                                            (Draft)                                                  01/29/2009)
Was the scope of the compliance       Cannot              Cannot              Cannot              For the financial   Cannot              For the financial
review adequate?                      determine.          determine.          determine.          management          determine.          management
                                      Neither the scope   Neither the scope   Neither the scope   review, neither     Neither the scope   review, neither
                                      of work nor the     of work nor the     of work nor the     the scope of work   of work nor the     the scope of work
                                      report mentions     report mentions     report mentions     nor the report      report mentions     nor the report
                                      compliance, but a   compliance, but a   compliance, but a   discusses           compliance, but a   discusses
                                      reviewer stated     reviewer stated     reviewer stated     compliance. The     reviewer stated     compliance. The
                                      that compliance     that compliance     that compliance     procurement         that compliance     procurement
                                      with local          with local laws     with local laws     review covered      with local laws     review covered
                                      regulations and     and regulations     and regulations     compliance with     and regulations     compliance with
                                      with World Bank     was considered.     and World Bank      the Procurement     was considered.     the Procurement
                                      procurement                             grant provisions    Law by reviewing                        Law and World
                                      requirements                            was considered.     one procurement                         Bank
                                      was considered.                                             action.                                 procurement
                                                                                                                                          requirements.
Is it clear how the reviewers         Cannot              Cannot              Cannot              Cannot              Cannot              Cannot
decided which compliance              determine. (See     determine. (See     determine. (See     determine for the   determine. (See     determine. (See
conditions would be reportable and    above.)             above.)             above.)             financial           above.)             above.)
which not?                                                                                        management
                                                                                                  portion (see
                                                                                                  above). For the
                                                                                                  procurement
                                                                                                  review, the
                                                                                                  reviewer
                                                                                                  consulted a
                                                                                                  number of older
                                                                                                  assessments,
                                                                                                  ADS 305, the
                                                                                                  Project Officer's
                                                                                                  Guidebook on
                                                                                                  Host Country
                                                                                                  Contracting, etc.
Did the assessment include a clear    There is no         Yes.                Yes.                Yes.                Yes.                For the financial
conclusion about the ability of the   overall                                                                                             management


                                                                                                                                                              11
                                                                                                                                                   Appendix I

Item                                    Ministry of           Ministry of       Ministry of          Ministry of       Ministry of          Ministry of
                                             Rural           Agriculture,       Education         Communication         Finance           Public Health
                                       Rehabilitation      Irrigation, and        (Draft)         and Information     (07/27/2009)       (10/13/2007 and
                                              and             Livestock                             Technology                             05/14/2008)
                                       Development           (06/28/2010)                         (12/29/2008 and
                                           (Draft)                                                  01/29/2009)
ministry to responsibly manage       conclusion but                                                                                      portion, yes. For
USAID funds?                         each area                                                                                           the procurement
                                     examined was                                                                                        review, the report
                                     rated                                                                                               is mostly positive
                                     satisfactory. (But                                                                                  but there is no
                                     note that the                                                                                       clear conclusion.
                                     report is still in
                                     draft.)
Did the assessment include           Yes.                 Yes.               Yes.                 Yes.              Yes.                 Yes.
recommendations if appropriate?
Was the report indexed to            No. (But note        No.                No.                  No.               No.                  No.
supporting documentation?            that the report is
                                     still in draft.)
Was there evidence of supervisory    Yes.                 Yes.               Yes.                 Yes.              No evidence of a     For the financial
review of the report?                                                                                               supervisory          management
                                                                                                                    review, but a        review, no. For
                                                                                                                    reviewer             the procurement
                                                                                                                    indicated that the   review, there was
                                                                                                                    controller           no evidence of
                                                                                                                    reviewed the         supervisory
                                                                                                                    report.              reviewer but a
                                                                                                                                         reviewer stated
                                                                                                                                         that one of the
                                                                                                                                         contracting
                                                                                                                                         officers had
                                                                                                                                         reviewed the
                                                                                                                                         supporting
                                                                                                                                         documentation.
Was there evidence of supervisory    No. (But note        No, and report     No evidence of a     No.               No, and report       For the financial
review of the underlying evidence?   that the report is   was not cross-     supervisory                            was not cross-       management
                                     still in draft.)     indexed to         review, but a                          indexed to           review, no. For
                                                          supporting         reviewer                               supporting           the procurement
                                                          documents so       indicated that the                     documents so         review, there was
                                                          such a review      report and                             such a review        no evidence of


                                                                                                                                                              12
                                                                                                                                                     Appendix I

Item                                 Ministry of              Ministry of       Ministry of          Ministry of         Ministry of          Ministry of
                                        Rural                Agriculture,       Education         Communication           Finance           Public Health
                                    Rehabilitation         Irrigation, and        (Draft)         and Information       (07/27/2009)       (10/13/2007 and
                                         and                  Livestock                             Technology                               05/14/2008)
                                    Development              (06/28/2010)                         (12/29/2008 and
                                       (Draft)                                                      01/29/2009)
                                                          would have been    supporting                               would have been      supervisory
                                                          difficult.         documentation                            difficult.           reviewer but a
                                                                             was reviewed.                                                 reviewer stated
                                                                                                                                           that one of the
                                                                                                                                           contracting
                                                                                                                                           officers reviewed
                                                                                                                                           the supporting
                                                                                                                                           documentation.
Was the ministry given an          No. (But note          No.                No.                  No.                 There is no          No.
opportunity to comment on the      that the report is                                                                 documentary
report?                            still in draft.)                                                                   evidence that the
                                                                                                                      draft report was
                                                                                                                      shared with the
                                                                                                                      MOF but a
                                                                                                                      reviewer thought
                                                                                                                      that it was shared
                                                                                                                      with them.
Were ministry comments provided?   NA (see above.)        NA (see above.)    NA (see above.)      NA (see above.)     NA (see above.)      NA (see above.)
Were ministry comments             NA (see above.)        NA (see above.)    NA (see above.)      NA (see above.)     NA (see above.)      NA (see above.)
adequately addressed by the
reviewer?
Other matters                      Work was done                             The work was
                                   from 3/14/2010 to                         done in Oct
                                   4/24/2010 but                             2009, but the
                                   report is still in                        report is still in
                                   draft; a reviewer                         draft.
                                   indicated that it is
                                   likely that
                                   significant
                                   changes have
                                   taken place since
                                   then.
How long did the fieldwork take?   3/14/2010 to           12/12/2009 -       10/21 -              For the financial   4 days ending        Cannot
                                   4/24/2010.             2/1/2010.          10/23/2009 (3        management          6/3/2009.            determine.


                                                                                                                                                               13
                                                                                                       Appendix I

Item    Ministry of        Ministry of       Ministry of       Ministry of      Ministry of      Ministry of
           Rural          Agriculture,       Education      Communication        Finance       Public Health
       Rehabilitation   Irrigation, and        (Draft)      and Information    (07/27/2009)   (10/13/2007 and
            and            Livestock                          Technology                        05/14/2008)
       Development        (06/28/2010)                      (12/29/2008 and
          (Draft)                                             01/29/2009)
                                          days).           review, cannot
                                                           determine. For
                                                           the procurement
                                                           review, 11/17-
                                                           18/2009 (2 days).




                                                                                                                14
